No. 20In the

Supreme Court of the United States
ESSITY HYGIENE AND HEALTH AB, ESSITY
PROFESSIONAL HYGIENE NORTH AMERICA LLC,
Petitioners,
v.
CASCADES CANADA ULC,
TARZANA ENTERPRISES, LLC,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
G. Eric Brunstad, Jr.
Dechert LLP
90 State House Square
Hartford, CT 06103

Martin J. Black
Counsel of Record
Michael H. McGinley
Kevin M. Flannery
Dechert LLP
2929 Arch Street
Philadelphia, PA 19104
(215) 994-4000
martin.black@dechert.com

Stephen S. Rabinowitz
Mitchell E. Epner
Dechert LLP
Three Bryant Park
1095 Ave. of the Americas
New York, NY 10036
Counsel for Petitioners
Dated: July 24, 2020
297408

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The Constitution requires that Officers of the
United States be appointed with the “Advice and
Consent of the Senate.” U.S. Const. art. II, § 2, cl. 2.
This Court has enforced that mandate vigorously, to
the point of exercising discretion to hear otherwise
forfeited Appointments Clause challenges. See, e.g.,
Freytag v. Comm’r, 501 U.S. 868 (1991). But the
Court has not defined the bounds of that discretion or
whether such challenges may be forfeited at all. As
Justice Scalia observed in Freytag, the lower courts
“remain without guidance as to whether [an
Appointments Clause] forfeiture must, or even may,
be disregarded.” Id. at 893 (Scalia, J., concurring).
Without that guidance, the lower courts have followed
different paths, with the Federal Circuit recently
striking out in a unique direction. In Arthrex, Inc. v.
Smith & Nephew, Inc., 941 F.3d 1320 (Fed. Cir. 2019),
the court held that the appointment of Administrative
Patent Judges violated the Appointments Clause, but
then categorically refused to apply that holding in
pending cases where the issue had not been raised in
the opening appellate brief, even those (like this one)
where the briefing had not concluded. That approach,
which eschews any discretion, is inconsistent with the
decisions of this Court and other circuits, as well as
common sense.
The question presented is: Following a
precedential decision sustaining an Appointments
Clause challenge, does a court have discretion to apply
the decision in pending cases where it has not already
been raised, and if so, under what circumstances
should it exercise that discretion?

ii
PARTIES TO THE PROCEEDING BELOW
Petitioners Essity Health and Hygiene AB and
Essity Professional Hygiene North America LLC
(collectively, “Essity”) were the patent owners in
proceedings before the Patent Trial and Appeal Board
and the appellants in the court of appeals.
Respondents Cascades Canada ULC and Tarzana
Enterprises, LLC were petitioners in proceedings
before the Patent Trial and Appeal Board and
appellees in the court of appeals.
In each appeal, the United States intervened in the
court of appeals after Essity filed a Notice of
Constitutional Challenge regarding retroactive
application of the inter partes review statute and was
dismissed as a party on its own motion when that
issue was not raised.
RULE 29.6 STATEMENT
Essity Hygiene and Health AB and Essity
Professional Hygiene North America LLC are whollyowned subsidiaries of Essity Aktiebolag (publ), which
is traded on the Swedish stock market. No other
publicly traded company owns 10% or more of the
stock of Essity Hygiene and Health AB, Essity
Professional Hygiene North America LLC, or Essity
Aktiebolag (publ).

iii
RELATED PROCEEDINGS
The following proceedings are directly related
to this case within the meaning of Rule 14.1(b)(iii):

Essity Hygiene and Health AB v. Cascades
Canada ULC, Nos. 2019-1736, 2019-1741 (Fed.
Cir.), judgment entered on May 8, 2020;

Essity Professional Hygiene North America LLC v.
Cascades Canada ULC, No. 2019-1742 (Fed. Cir.),
judgment entered on May 8, 2020;

Cascades Canada ULC v. Essity Hygiene and
Health AB, Case IPR2017-01902 (P.T.A.B.), final
written decision entered on February 1, 2019;

Cascades Canada ULC v. Essity Hygiene and
Health AB, Case IPR2017-01921 (P.T.A.B.), final
written decision entered on February 1, 2019; and

Cascades Canada ULC v. Essity Professional
Hygiene North America LLC, Case IPR2017-02198

(P.T.A.B.), final written decision entered on
February 25, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDING BELOW ........... ii
RULE 29.6 STATEMENT ......................................... ii
RELATED PROCEEDINGS .................................... iii
TABLE OF CONTENTS ........................................... iv
TABLE OF APPENDICES ....................................... vi
TABLE OF AUTHORITIES................................... viii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS ........................... 1
STATEMENT OF THE CASE ................................... 2
A.

THE ARTHREX DECISION ........................... 4

B.

THE POST-ARTHREX LITIGATION ............ 5

C.

FACTUAL AND PROCEDURAL
HISTORY ......................................................... 7

REASONS FOR GRANTING THE PETITION ...... 11
I.

THE FEDERAL CIRCUIT’S
FORFEITURE RULE IS
INCONSISTENT WITH THIS
COURT’S PRECEDENTS. ............................ 13

A.

The “Opening Brief” Rule Is
Inconsistent With This Court’s
Discretionary Approach in
Appointments Clause Cases.......................... 13

v
TABLE OF CONTENTS
(continued)
Page
B.

The “Opening Brief” Rule Is
Inconsistent With This Court’s
Precedents Regarding the Treatment of
Intervening Changes in the Law. ................. 16

II.

THE COURT SHOULD GRANT
CERTIORARI TO RESOLVE
CONFUSION IN THE LOWER
COURTS AND PROVIDE GUIDANCE
ON THIS IMPORTANT QUESTION. .......... 19

A.

As Justice Scalia Predicted, the Lower
Courts Lack a Workable Standard to
Apply .............................................................. 20

B.

Recent Cases Demonstrate This Issue Is
Likely to Recur............................................... 22

III.

THIS CASE PRESENTS AN IDEAL
VEHICLE TO ADDRESS THIS ISSUE. ...... 24

CONCLUSION ......................................................... 25

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED
MAY 8, 2020................................................... 1a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED
MAY 8, 2020................................................. 12a
APPENDIX C — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED
NOVEMBER 25, 2019 ................................. 20a
APPENDIX D — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED
NOVEMBER 25, 2019 ................................. 22a
APPENDIX E — RELEVANT STATUTORY
PROVISIONS
35 U.S.C. § 3 (2012) ..................................... 24a
35 U.S.C. § 311 (2012) ................................. 32a
35 U.S.C. § 312 (2012) ................................. 33a
35 U.S.C. § 313 (2012) ................................. 35a
35 U.S.C. § 314 (2012) ................................. 36a
35 U.S.C. § 315 (2012) ................................. 37a
35 U.S.C. § 316 (2012) ................................. 40a
35 U.S.C. § 317 (2012) ................................. 44a
35 U.S.C. § 318 (2012) ................................. 45a
35 U.S.C. § 319 (2012) ................................. 47a
35 U.S.C. § 311 (2006) ................................. 48a
35 U.S.C. § 312 (2006) ................................. 49a

vii
TABLE OF APPENDICES
(continued)
Page
35 U.S.C. § 313 (2006) ................................. 50a
35 U.S.C. § 314 (2006) ................................. 51a
35 U.S.C. § 315 (2006) ................................. 53a
35 U.S.C. § 316 (2006) ................................. 55a
35 U.S.C. § 317 (2006) ................................. 56a
35 U.S.C. § 318 (2006) ................................. 58a

viii
TABLE OF AUTHORITIES
Page
CASES
Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019) ................... passim
Bahlul v. United States,
840 F.3d 757 (D.C. Cir. 2016) (en banc) ............. 21
Bedgear, LLC v. Fredman Bros. Furniture Co.,
779 F. App’x 748 (Fed. Cir. 2019) ......................... 6
Biodelivery Scis. v. Aquestive Therapeutics,
898 F.3d 1205 (Fed. Cir. 2018) ........................... 18
Boston Sci. Neuromodulation Corp. v. Nevro
Corp., No. 2019-1582, Dkt. No. 56
(Fed. Cir. Nov. 22, 2019) ..................................... 24
Boston Sci. Neuromodulation Corp. v. Nevro
Corp., No. 2019-1582, Dkt. No. 73
(Fed. Cir. Jan. 23, 2020) ..................................... 24
Cirko ex rel. Cirko v. Comm’r of Soc. Sec.,
948 F.3d 148 (3d Cir. 2020) ................................ 20
Customedia Techs., LLC v. Dish Network
Corp., 941 F.3d 1173 (Fed. Cir. Nov. 1,
2019) ............................................................ passim
David Stanley Consultants v. Dir., Office of
Workers’ Comp. Programs,
800 F. App’x 123 (3d Cir. 2020) .......................... 21

ix
TABLE OF AUTHORITIES
(continued)
Page
Ethicon Endo-Surgery, Inc. v. Covidien LP,
812 F.3d 1023 (Fed. Cir. 2016) ............................. 5
Freytag v. Comm’r
501 U.S. 868 (1991) ..................................... passim
Glidden Co. v. Zdanok,
370 U.S. 530 (1962) ..................................... passim
Griffith v. Kentucky,
479 U.S. 314 (1987) ............................................. 16
Harper v. Va. Dep’t of Tax’n,
509 U.S. 86 (1993) ............................................... 16
Hormel v. Helvering,
312 U.S. 552 (1941) ............................................. 17
Huawei Techs. Co. v. Iancu,
No. 2019-1493, 2020 WL 2488644
(Fed. Cir. May 14, 2020) ..................................... 24
Island Creek Coal Co. v. Wilkerson,
910 F.3d 254 (6th Cir. 2018) ............................... 21
Jones Bros. v. Sec’y of Labor,
898 F.3d 669 (6th Cir. 2018) ............................... 21
Lamar v. United States,
241 U. S. 103 (1916) .............................. 6, 7, 12, 14
Lucia v. SEC,
585 U.S. ___, 138 S. Ct. 2044 (2018) ........ 5, 12, 21

x
TABLE OF AUTHORITIES
(continued)
Page
Mackey v. United States,
401 U.S. 667 (1971) ............................................ 16
Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211 (1995) ............................................. 17
Polaris Indus. Inc. v. Arctic Cat, Inc.,
724 F. App’x 948 (Fed. Cir. 2018) ...................... 18
SAS Inst., Inc. v. Iancu,
584 U.S. ___, 138 S. Ct. 1348 (2018) .................. 18
Thorpe v. Hous. Auth. of Durham,
393 U.S. 268 (1969) ............................................. 16
Trading Techs. Int’l, Inc. v. IBG LLC,
771 F. App’x 493 (Fed. Cir. 2019) ......................... 6
United States v. Schooner Peggy,
5 U.S. (1 Cranch) 103 (1801) ............................. 17
VirnetX Inc. v. Cisco Sys., Inc.,
No. 2019-1671, 2020 WL 2511116
(Fed. Cir. Jan. 24, 2020) ..................................... 22
VirnetX Inc. v. Cisco Sys., Inc.,
958 F.3d 1333 (Fed. Cir. 2020) ........................... 23
CONSTITUTION, STATUTES AND RULES
U.S. Const. art. II, § 2, cl. 2............................. i, 1, 2, 4
28 U.S.C. § 1254(1) ..................................................... 1

xi
TABLE OF AUTHORITIES
(continued)
Page
35 U.S.C. § 3 (2012) .................................................... 5
35 U.S.C. §§ 311-18 (2006) ....................................... 22
35 U.S.C. § 314 (2012) ................................................ 5
35 U.S.C. § 318 ........................................................... 9
35 U.S.C. §§ 311-19 (2012) ......................................... 4
Fed. R. App. P. 31(c) ................................................. 10
Fed. Cir. R. 36............................................................. 6
OTHER AUTHORITIES
Court of Appeals for the Federal Circuit,
Internal Operating Procedure No. 3 (Nov.
14, 2008),
http://www.cafc.uscourts.gov/sites/default/fi
les/rules-of-practice/IOPs/IOPsMaster2.pdf 24, 25
Dennis Crouch, Wrongly Affirmed Without
Opinion, 52 Wake Forest L. Rev. 561 (2017) ....... 6
COURT FILINGS
Petition for Writ of Certiorari, Arthrex, Inc. v.
Smith & Nephew, Inc. (Apr. 6, 2020)
(No. 19-1204) ....................................................... 24
Petition for Writ of Certiorari, United States v.
Arthrex, Inc. (June 25, 2020)
(No. 19-1434) ....................................................... 23

xii
TABLE OF AUTHORITIES
(continued)
Page
Petition for Writ of Certiorari, Sanofi-Aventis
Deutschland GmbH v. Mylan Pharms. Inc.
(June 26, 2020)
(No. 19-1451) ....................................................... 23
Petition for Writ of Certiorari, Smith &
Nephew, Inc. v. Arthrex, Inc.
(June 29, 2020) (No. 19-1452) ............................. 23
Petition for Writ of Certiorari, Arthrex, Inc. v.
Smith & Nephew, Inc. (June 30, 2020)
(No. 19-1458) ....................................................... 23
Petition for Writ of Certiorari, Duke Univ. v.
BioMarin Pharm. Inc. (July 2, 2020) (No.
19-1475) .............................................................. 23

1
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Federal Circuit in Appeal Nos. 2019-1736, 1741 is unreported but available at __ F. App’x __,
2020 WL 2299641 and is reprinted at Pet. App. 1a.
The Federal Circuit’s opinion in Appeal No. 2019-1742
is unreported but available at __ F. App’x __, 2020 WL
2299642 and is reprinted at Pet. App. 12a. The
Federal Circuit’s Order on Motion in Appeal Nos.
2019-1736, -1741 holding that Essity forfeited its
Arthrex challenge is unreported and is reprinted at
Pet. App. 20a. The Federal Circuit’s Order on Motion
to the same effect in Appeal No. 2019-1742 is
unreported and is reprinted at Pet. App. 22a.
JURISDICTION
The court of appeals entered its judgment in each
appeal on May 8, 2020. Pet. App. 1a, Pet. App. 12a.
This Court has extended the deadline to file a petition
for a writ of certiorari due on or after March 19, 2020
to 150 days. This Court has jurisdiction under 28
U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Appointments Clause, U.S. Const. art. II, § 2,
cl. 2, provides as follows:
[The President] shall have Power, by and
with the Advice and Consent of the
Senate, to make Treaties, provided two
thirds of the Senators present concur;
and he shall nominate, and by and with

2
the Advice and Consent of the Senate,
shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the
Supreme Court, and all other Officers of
the United States, whose Appointments
are not herein otherwise provided for,
and which shall be established by Law:
but the Congress may by Law vest the
Appointment of such inferior Officers, as
they think proper, in the President
alone, in the Courts of Law, or in the
Heads of Departments.
Relevant sections of the Patent Act, 35 U.S.C. §§ 3
& 311-19 (2012) and 35 U.S.C. §§ 311-18 (2006), are
reproduced in the Appendix at Pet. App. 24a.
STATEMENT OF THE CASE
Administrative Patent Judges (“APJs”) who sit on
the Patent Trial and Appeal Board (the “Board”)
exercise substantial adjudicative authority, but are
not appointed by the President with the advice and
consent of the Senate. In several instances, litigants
have challenged the authority of the APJs under the
Appointments Clause. After repeatedly rejecting such
challenges, a panel of the Federal Circuit declared in
Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320
(Fed. Cir. 2019) that the APJs were indeed principal
officers of the United States that had been appointed
in violation of the Appointments Clause. The Arthrex
court then remanded the case for determination by a
new panel of APJs.
Thirteen days later, after Essity had filed its
opening briefs, but before briefing had concluded,

3
Essity filed motions to remand its appeals on the same
ground. Citing this Court’s rulings in Freytag and
Glidden Co. v. Zdanok, 370 U.S. 530, 535-36 (1962),
both of which refused to apply forfeiture rules to
Appointments Clause challenges, Essity asked the
court to apply its own intervening law and remand
this case as well. The court’s answer to Freytag and
Glidden was silence, failing to refer to, much less
distinguish, this Court’s decisions. Instead, the
Federal Circuit applied a rigid rule, stating that it
would consider a challenge brought the day before an
opening brief, but not the day after, and it summarily
denied Essity’s motions.
The court cited no
impediment to applying its Arthrex decision to this
case, such as the need for further factual development,
nor any judicial efficiency gains.
Rather, it
reformulated the normal rule refusing to consider
arguments raised for the first time in a reply brief—
which exists to ensure that the parties can fully join
any issue raised on appeal—into an immutable
“opening brief” rule that bars the application of
intervening decisions where the parties indisputably
have an opportunity to brief the issue. The Federal
Circuit’s decision refusing to apply its own
intervening law resulted in the affirmance of
numerous ultra vires Board decisions rendered by
unconstitutionally appointed officers.
This case is an ideal vehicle to decide the
important and recurring question of whether and
when lower courts should exercise their discretion to
apply
intervening
precedents
enforcing
the
Appointments Clause to pending cases where the
issue was not previously raised. Multiple petitions for
certiorari are pending on the forfeiture questions

4
surrounding Arthrex, but to Essity’s knowledge this is
the sole case involving a forfeiture that occurred in the
middle of briefing before actual submission of the
appeal for decision. Certiorari is warranted both to
settle the question of whether a court of appeals may
categorically eschew all discretion to hear an
Appointments Clause challenge after an opening brief
has been filed and under what circumstances it should
exercise that discretion.
THE ARTHREX DECISION

A.

In Arthrex, the Federal Circuit held that the
appointment process for APJs who conduct inter
partes reviews violates the Appointments Clause. 941
F.3d at 1335.1 The court held that APJs are principal
officers because they exercise significant power, issue
decisions that cannot be reviewed, vacated, or
corrected by any presidentially-appointed officer, and
enjoy tenure protections that prevent them from being
removed at will by a principal officer. Id. at 1331-35.
Because principal officers must be appointed by the
President with the advice and consent of the Senate,
U.S. Const. art. II, § 2, cl.2, whereas APJs are
appointed by the Secretary of Commerce, the Federal
Circuit held that “the current structure of the Board
violates the Appointments Clause.” Id. at 1335.
The Arthrex court rejected the appellees’ and the
government’s argument that Arthrex had forfeited its
1

An inter partes review is an adversarial proceeding before
a panel of APJs of the Patent Trial and Appeal Board, in which
a challenger can contest validity of a patent. 35 U.S.C. §§ 31119 (2012).

5
Appointments Clause challenge by failing to raise it
before the Board. Id. at 1326. The court noted that it
had discretion to deviate from the general rule of
forfeiture in order to reach an Appointments Clause
challenge that was not raised below. Id. (citing
Freytag, 501 U.S. at 878-79 and Glidden, 370 U.S. at
535-36). The court also concluded that it would have
been futile for Arthrex to raise the Appointments
Clause challenge before the Board. Id. at 1339.
Because the Board’s decision was made by a panel
of APJs who were not constitutionally appointed, the
court vacated that decision and remanded it for
determination by a new panel of APJs. Id. at 1340
(citing Lucia v. SEC, 585 U.S. ___, 138 S. Ct. 2044,
2055 (2018)). To remedy the Appointments Clause
violation prospectively, the Federal Circuit severed
the APJs’ removal protections. Id. at 1335-37.
THE POST-ARTHREX LITIGATION

B.

The Arthrex decision was a watershed event in the
realm of patent litigation. Before Arthrex, the Federal
Circuit had characterized the APJs as “subordinate
officers” to whom the Director could delegate his
authority to institute inter partes reviews. Ethicon
Endo-Surgery, Inc. v. Covidien LP, 812 F.3d 1023,
1032 (Fed. Cir. 2016).2 The court had twice reaffirmed
2

The “Director” is the statutory title for the Under Secretary
of Commerce, appointed by the President with the advice and
consent of the Senate, in whom the powers and duties of the U.S.
Patent and Trademark Office are vested. 35 U.S.C. § 3 (2012).
The Director determines whether or not to institute an inter
partes review, and that determination is final and
nonappealable. 35 U.S.C. § 314 (2012).

6
that view—by summary affirmance—and rejected the
very same Appointments Clause challenge it
ultimately sustained in Arthrex. See Trading Techs.
Int’l, Inc. v. IBG LLC, 771 F. App’x 493 (Fed. Cir.
2019) (summary affirmance rejecting Appointments
Clause challenge); Bedgear, LLC v. Fredman Bros.
Furniture Co., 779 F. App’x 748 (Fed. Cir. 2019)
(same).3
The day after issuing Arthrex, the Federal Circuit
took immediate and novel steps to limit its effect. The
court issued a precedential order precluding an
appellant from relying on Arthrex in a pending appeal
where the challenger had failed to anticipate the
change of law and raise the issue in its opening brief
or a pre-filing motion. Customedia Techs., LLC v.
Dish Network Corp., 941 F.3d 1173, 1174 (Fed. Cir.
Nov. 1, 2019). The court stated that it was “well
established that arguments not raised in the opening
brief are waived” and that this rule “applies with
equal force to Appointments Clause challenges.” Id.
(internal quotation marks and citations omitted). The
Federal Circuit did not address this Court’s decisions
refusing categorically to recognize forfeiture in
Appointments Clause cases and favoring a more
flexible discretionary approach. See Freytag, 501 U.S.
3

The Federal Circuit employs a heavily criticized practice of
issuing summary dispositions without opinion under Federal
Circuit Rule 36. See Dennis Crouch, Wrongly Affirmed Without
Opinion, 52 Wake Forest L. Rev. 561 (2017). Accordingly, the
nature of the Appointments Clause challenge does not appear in
the affirmances. The Appointments Clause challenge in Trading
Technologies can be found at Dkt. No. 36 in Appeal No. 18-1489
(Fed. Cir.) at 79-80, and in Bedgear it is described in the order
vacating in light of Arthrex, 803 F. App’x 407 (Fed. Cir. 2020).

7
at 878-79; Glidden, 370 U.S. at 535-36; Lamar v.
United States, 241 U. S. 103 (1916). Indeed, ignoring
this Court’s discretionary approach, the Federal
Circuit
bound
its
own
hands,
declaring:
“Consequently, we must treat that argument as
forfeited in these appeals.” Customedia, 941 F.3d at
1174 (emphasis added). The upshot of the Federal
Circuit’s approach is that, at the time Arthrex was
decided, any litigant who had yet to file its opening
brief in a pending appeal was free to make an
Appointments Clause challenge even if the litigant
had never raised it before. But if the same litigant
had filed its opening brief without raising the issue,
the litigant would not get the benefit of the thenprevailing law at the time its case was decided.
C.

FACTUAL AND PROCEDURAL HISTORY

Petitioners Essity Hygiene and Health AB and
Essity Professional Hygiene North America LLC
(collectively, “Essity”) are leaders in the paper-goods
industry and provide paper-based commercial
products for dining, kitchen, washroom, and cleaning
applications in healthcare, hotel, office, and food
service markets. Essity manufactures tissue, towel,
and napkin products that are sold to distributors who
service office buildings, food service companies,
hospitality
companies,
educational
facilities,
healthcare
institutions,
janitorial/sanitary
companies, and the automotive industry. One of the
three largest producers of Away-From-Home tissue
products in North America, Essity develops,
manufactures, markets and distributes napkin
products that directly compete with the products
commercialized by Respondents Tarzana Enterprises,

8
LLC (“Tarzana”) and Cascades Canada ULC
(“Cascades ULC”, and collectively with Tarzana,
“Cascades”).
The patents at issue in Appeal Nos. 2019-1736 and
2019-1741 describe an improvement in paper napkin
design: a stack of absorbent sheets, such as napkins,
that (a) are interfolded for easy removal from a
dispenser so as to encourage users to remove napkins
one at a time, and (b) are folded in a particular way
(i.e., with a first fold that is deliberately offset from a
parallel line bisecting the sheet, and a second fold that
preferably bisects the sheet in the perpendicular
direction) thereby requiring less paper to
manufacture, without significantly affecting the
tactile perception and performance of the napkin.
Essity obtained two patents for this invention: U.S.
Patent No. 8,597,761 (the “‘761 patent”) and its
continuation, U.S. Patent No. 9,320,372 (the “‘372
patent”).
The patent at issue in Appeal No. 2019-1742, U.S.
Patent No. 8,273,443 (the “‘443 patent”) describes an
additional improvement in paper napkin design:
namely, a stack of absorbent napkins that (a) are
interfolded for easy removal, one at time, from a
dispenser, (b) are embossed so as to improve the
aesthetic performance of the napkins, and (c) are
interleaved such that each napkin within the stack is
oriented oppositely from each preceding and each
succeeding napkin in the stack.
After Essity had asserted the ‘761, ‘372, and ‘443
patents against Cascades in litigation, Cascades filed
petitions with the U.S. Patent and Trademark Office
for inter partes review, asserting that their claims

9
were anticipated or rendered obvious by certain prior
art patents and patent publications. The Board
instituted an inter partes review of each patent and
issued final written decisions under 35 U.S.C. § 318
holding the challenged claims unpatentable for
anticipation and/or obviousness.
Essity appealed the Board’s decisions to the
Federal Circuit. In its opening brief in Appeal Nos.
2019-1736, -1741, filed on September 3, 2019, Essity
argued that the Board had relied on a flawed reading
of a reference called “Grosriez,”4 on which it based its
conclusion that Grosriez anticipated several claims of
Essity’s patents. Essity challenged the remainder of
the Board’s analysis as tainted by (a) its flawed
reading of Grosriez, and (b) its disregard of
affirmative evidence of nonobviousness.
In its
opening brief in Appeal No. 2019-1742, Essity
challenged the Board’s conclusion that the claims on
appeal were obvious over a combination of two patents
issued, respectively, 81 and 84 years before the
priority date of the ‘443 patent, given an absence of
any reason to make the asserted combination, and
objective evidence of nonobviousness.
On November 13, 2019—13 days after the decision
in Arthrex and before Cascades filed its responsive
brief in Appeal Nos. 2019-1736, -1741—Essity filed a
motion requesting vacatur of the Board’s decisions in
light of Arthrex and seeking remand for
determination by a newly constituted panel of APJs.
Citing Freytag and Glidden, Essity argued that the
4

U.S. Patent No. 6,602,575 to Lefevre Du Grosriez et al.,
entitled “Stack and Method for Stacking Folded Supple Sheets.”

10
Federal Circuit had discretion to reach the issue,
although it had not been raised in Essity’s opening
brief, because Arthrex represented a significant
intervening change in the law and there was a strong
judicial interest in considering an Appointments
Clause issue that was newly recognized by that court
and raised promptly thereafter in a pending appeal.5
Later that day, the court issued an order in Appeal
Nos. 2019-1736, -1741 staying further merits briefing
under Federal Circuit Rule 31(c), which governs the
treatment of potentially terminating motions.6
Cascades subsequently filed a full response to the
remand request, and Essity then filed its reply brief
around noon on November 25, 2020. By the end of the
day, the remand motion had been distributed,
decided, and denied. Citing its precedential order in
Customedia, the court concluded that Essity’s
Appointments Clause challenge had been forfeited.
Pet. App. 21a, Pet. App. 23a. It did not address this
Court’s precedents or Essity’s arguments regarding
its discretion not to apply the forfeiture rule in this
case.
On May 8, 2020, the Federal Circuit issued a
decision on the merits in Appeal Nos. 20191736, -1741 affirming the Board’s rulings. The court
deferred to the Board’s interpretation of Grosriez as
5

The motion to remand in Appeal No. 2019-1742 was filed
concurrently with Essity’s reply brief on appeal on November 13,
2019.
6

In Appeal No. 2019-1742, an order staying the briefing
schedule under Federal Circuit Rule 31(c) was issued on
November 14, 2019.

11
supported by substantial evidence and thus concluded
that the Board’s finding of obviousness was not
affected by a misreading of Grosriez. That same day,
the court issued a decision on the merits in Appeal No.
2019-1742, affirming the Board’s rulings.
REASONS FOR GRANTING THE PETITION
The rigid forfeiture rule that the Federal Circuit
adopted and applied in this case conflicts with this
Court’s precedents establishing a discretionary
approach to the review of otherwise forfeited
Appointments Clause challenges. This Court has
repeatedly held that normal forfeiture rules should
yield in meritorious Appointments Clause challenges.
And for good reason: Those challenges cut to the core
of the separation of powers and address ultra vires
government action. The Federal Circuit’s rule, by
contrast, enshrines unconstitutional administrative
rulings without providing any discernible benefit to
judicial efficiency or fairness to the parties. This
Court should grant certiorari to provide guidance to
the lower courts on this important question and to
conform Federal Circuit practice to this Court’s own
precedents.
Significantly, no other court of appeals applies
such a rigid approach in this context. Given the
Court’s decisions in Freytag and Glidden, that is not
surprising. And the Federal Circuit’s approach is all
the more confounding in light of its willingness to
excuse forfeiture to reach the Appointments Clause
issues in Arthrex itself. Ordinarily, a court of appeals
will not consider an argument raised for the first time
on appeal. Yet that is exactly what the Federal
Circuit did in Arthrex—and properly so. But it then

12
quickly adopted an inflexible forfeiture rule that
denied other parties in other pending appeals the
benefit of its watershed constitutional ruling in
Arthrex.
Not only is that rule inconsistent with this Court’s
precedents; it undermines our constitutional design.
In considering constitutional challenges under the
Appointments Clause, this Court has championed
“‘the strong interest of the federal judiciary in
maintaining the constitutional plan of separation of
powers.’” Freytag, 501 U.S. at 879 (quoting Glidden,
370 U.S. at 536). Consistent with that view, the Court
in Freytag, Glidden, and Lamar reiterated that
Appointments Clause challenges may be considered
when raised for the first time on appeal, and in Lamar
the Court decided a challenge that was not merely
omitted from the opening appellate brief, but was first
presented “in this Court [by] filing . . . a supplemental
brief upon a second request for review.” Freytag, 501
U.S. at 879 (quoting Glidden, 370 U.S. at 536). The
Federal Circuit’s position that it “must treat”
challenges made following the opening brief as
forfeited is thus in direct conflict with this Court’s
decisions. Customedia, 941 F.3d at 1174. The Court
should grant certiorari to conform the Federal
Circuit’s approach to this Court’s practice.
The Court should also grant review to answer the
question Justice Scalia identified in Freytag—
namely, which factors properly guide a lower court’s
discretion
to
consider
otherwise
forfeited
Appointments Clause challenges? For the reasons
Justice Scalia elucidated, the question was timely in
1991 and is even more so today, following this Court’s

13
landmark decision in Lucia and the lower courts’
application of its principles to various questionable
government appointments. With respect to Arthrex
alone, several petitions have been filed seeking this
Court’s review of the forfeiture issue, and both the
government and the parties have sought review of the
underlying Arthrex decision itself.
Finally, this case presents an ideal vehicle to
resolve the question presented. Because Essity filed
its challenge 13 days after the Arthrex decision, and
before Respondent filed its brief in two of the appeals,
the procedural posture poignantly isolates the
unsparing harshness and unnecessary rigidity of the
Federal Circuit’s reasoning—Respondent was not
surprised and had every opportunity to respond to
Essity’s argument.
There are simply no
countervailing considerations, such as unreasonable
delay in filing the motion following the Arthrex
decision or a materially negative impact on judicial
efficiency—the issue had already been recently and
authoritatively resolved. For these reasons, and as
discussed below, the Court should grant certiorari in
this case.
I.

A.

THE FEDERAL CIRCUIT’S FORFEITURE
RULE IS INCONSISTENT WITH THIS
COURT’S PRECEDENTS.
The “Opening Brief” Rule Is Inconsistent
With This Court’s Discretionary Approach in
Appointments Clause Cases.

This Court’s discretionary approach to reviewing
otherwise forfeited Appointments Clause challenges
is grounded in the special nature of the issues

14
involved in such challenges. As the Court has
explained, Appointments Clause challenges are
included within a small class of issues denominated
as “nonjurisdictional structural constitutional
objections.” Freytag, 501 U.S. at 878-79. As the Court
has further explained, the constitutional significance
of these structural issues justifies the special
attention the Court has paid to them notwithstanding
a party’s failure to raise them in the ordinary course.
The practice of excusing forfeiture for these sorts
of core constitutional challenges has a long lineage at
this Court. As the Court observed in Freytag, in
Lamar v. United States, 241 U.S. 103 (1916), the
Court reviewed an Appointments Clause challenge to
an inter-circuit assignment “despite the fact that it
had not been raised in the District Court or in the
Court of Appeals or even in this Court until the filing
of a supplemental brief upon a second request for
review.” Freytag, 501 U.S. at 879 (quoting Glidden,
370 U.S. at 536). Thus, for over a century, this Court
has adhered to a flexible approach that favored
enforcing constitutional limits over formalistic
forfeiture rules.
Moreover, as the Court has further explained,
what is required in considering whether to hear an
otherwise forfeited Appointments Clause challenge is
a balancing of any perceived disruption to the
appellate process against the important constitutional
considerations at stake:
Like the Court in Glidden, we are faced
with a constitutional challenge that is
neither frivolous nor disingenuous. The
alleged defect in the appointment of the

15
Special Trial Judge goes to the validity of
the Tax Court proceeding that is the
basis for this litigation. It is true that, as
a general matter, a litigant must raise all
issues and objections at trial. But the
disruption to sound appellate process
entailed by entertaining objections not
raised below does not always overcome
what Justice Harlan called “the strong
interest of the federal judiciary in
maintaining the constitutional plan of
separation of powers.”

Id. (quoting Glidden, 370 U.S. at 536). Quite clearly,
the Court below did not heed this advice.

Had the Federal Circuit performed the requisite
balancing analysis, instead of applying its own rigid
“opening brief” rule, the result would have been a
remand to the Board to issue a new ruling with
constitutionally appointed APJs. As in Freytag and
Glidden, Essity presented “a constitutional challenge
that is neither frivolous nor disingenuous.” Id.
Indeed, the challenge had just succeeded in a prior
case. On the other side of the scale, there was no
material disruption or prejudice to the appellate
process in hearing Essity’s challenge. Following
Arthrex, the purely legal issue Essity raised required
virtually no judicial resources to resolve—the work
had already been done. The Federal Circuit stayed
the merits briefing to decide the motion, and the
remand motion was fully briefed and decided before
the merits briefing had concluded. Tellingly, the
Federal Circuit identified no material interest in
judicial efficiency, and there was none.

16
B.

The “Opening Brief” Rule Is Inconsistent
With This Court’s Precedents Regarding the
Treatment of Intervening Changes in the
Law.

The Federal Circuit’s position was all the more
remarkable because it departed from well-established
procedure on the application of intervening law,
treating the important constitutional question at
issue here with less solicitude than changes in the
interpretation of ordinary federal law.
As this Court has explained, it is axiomatic that
“an appellate court must apply the law in effect at the
time it renders its decision.” Thorpe v. Hous. Auth. of
Durham, 393 U.S. 268, 281 (1969). Consistent with
this
general
guidance,
a
newly-announced
interpretation of federal law “is . . . controlling . . . and
must be given full retroactive effect in all cases still
open on direct review and as to all events, regardless
of whether such events predate or postdate our
announcement of the rule.” Harper v. Va. Dep’t of
Tax’n, 509 U.S. 86, 97 (1993). As this Court has also
explained, this principle of retroactivity is
fundamental to the integrity of the judicial process.
“[T]he Court’s assertion of power to disregard current
law in adjudicating cases before us that have not
already run the full course of appellate review, is quite
simply an assertion that our constitutional function is
not one of adjudication but in effect of legislation.”
Griffith v. Kentucky, 479 U.S. 314, 323 (1987)
(quoting Mackey v. United States, 401 U.S. 667, 679
(1971) (Harlan, J.) (opinion concurring in judgment)).
Accordingly, “it is in the nature of judicial review that
precludes [courts] from ‘[s]imply fishing one case from

17
the stream of appellate review, using it as a vehicle
for pronouncing new constitutional standards, and
then permitting a stream of similar cases
subsequently to flow by unaffected by that new rule.’”
Id. (quoting Mackey, ibid.). It follows that “each court,
at every level, must ‘decide according to existing
laws.’” Plaut v. Spendthrift Farm, Inc., 514 U.S. 211,
227 (1995) (quoting United States v. Schooner Peggy,
5 U.S. (1 Cranch) 103, 109 (1801)).
In light of these considerations, this Court has
recognized that a new judicial precedent creates an
exception to the general rule of appellate waiver that
otherwise flows from a litigant’s failure to raise an
issue below or in an opening brief on appeal. “Rules
of practice and procedure are devised to promote the
ends of justice, not to defeat them.” Hormel v.
Helvering, 312 U.S. 552, 557 (1941). “A rigid and
undeviating judicially declared practice under which
courts of review would invariably and under all
circumstances decline to consider all questions which
had not previously been specifically urged would be
out of harmony with this policy.” Id. Accordingly, a
recognized exception to the rule of waiver applies
where “there have been judicial interpretations of
existing law after decision below and pending
appeal—interpretations which if applied might have
materially altered the result.” Id. at 558-59 (internal
citation omitted). Plainly that rule applies here,
where the new precedent was issued only days earlier
and cut to the core of the Constitution’s separation of
powers.
Notably, the Federal Circuit has followed these
precepts in other instances, for example refusing to

18
apply the “opening brief” rule when addressing a
change of statutory interpretation to the Board’s
authority. In SAS Institute, Inc. v. Iancu, 584 U.S.
___, 138 S. Ct. 1348, 1359-60 (2018), this Court
considered whether the Board’s statutory discretion to
grant or deny a challenger’s request to institute an
inter partes review extended to granting review only
on selected issues. The Court struck down the Board’s
practice of partial institution, after which the Federal
Circuit faced a slew of remand requests. Critically, in
considering these requests the Federal Circuit did not
apply an “opening brief” rule; indeed it explicitly
rejected that rule and held that a remand motion was
timely even when filed long after submission because
“SAS represented a significant change in law . . . .”
Biodelivery Scis. v. Aquestive Therapeutics, 898 F.3d
1205, 1209 (Fed. Cir. 2018). Consistent with its sister
courts, the Federal Circuit remarked that
“‘[p]recedent holds that a party does not waive an
argument that arises from a significant change in law
during the pendency of an appeal.’” Id. (quoting
Polaris Indus. Inc. v. Arctic Cat, Inc., 724 F. App’x
948, 949 (Fed. Cir. 2018)). That is as it should be, as
it clearly conforms with this Court’s practice.
In Customedia, however, the Federal Circuit
rejected this sensible and well-established approach.
It rested its ruling on the reflexive assertion that
“[o]ur law is well established that arguments not
raised in the opening brief are waived.” Customedia,
941 F.3d at 1174 (internal quotation marks and
citations omitted). To be sure, with respect to the
ordinary mine-run of issues, an appellant cannot raise
a new argument in a reply brief, effectively
sandbagging the appellee. But that is not the

19
applicable principle when intervening law is at issue,
and it is not the principle when the Appointments
Clause is at stake. In an apparent effort to blunt the
impact of Arthrex, the Federal Circuit departed from,
rather than followed, all of the well-established
principles established by this Court’s precedents.
The Federal Circuit’s approach plainly conflicts
with this Court’s decisions and practice. As this Court
has explained time and again, there are sound reasons
for the exercise of discretion in the context of
otherwise forfeited Appointments Clause challenges.
Once a court has declared that the members of a
tribunal have been appointed in violation of the
Constitution, that determination affects the integrity
of the tribunal’s authority no less in other pending
appeals. The decision below also allows the court to
deny similarly situated litigants the core structural
protections of the Constitution based on the mere
happenstance of whether their opening appellate brief
was due before or after Arthrex. Certiorari is
warranted to bring the Federal Circuit in line with
this Court’s precedents and protect the vital
constitutional protections they preserve.
II.

THE COURT SHOULD GRANT CERTIORARI
TO RESOLVE CONFUSION IN THE LOWER
COURTS AND PROVIDE GUIDANCE ON
THIS IMPORTANT QUESTION.

A.

As Justice Scalia Predicted, the Lower Courts
Lack a Workable Standard to Apply

In Freytag, Justice Scalia predicted that the
absence of guidance on how a lower court should
exercise its discretion in considering otherwise

20
forfeited Appointments Clause challenges would lead
to confusion in the lower courts. With remarkable
prescience he wrote:
Thus, when there occurs a similar
forfeiture of an Appointments Clause
objection—or of some other allegedly
structural constitutional deficiency—the
courts of appeals will remain without
guidance as to whether the forfeiture
must, or even may, be disregarded. (The
Court refers to this case as “‘one of th[e]
rare’” ones in which forfeiture will be
ignored, ibid. —but since all forfeitures
of Appointments Clause rights, and
arguably even all forfeitures of
structural constitutional rights, can be
considered ‘rare,’ this is hardly useful
guidance.) Having asked for this point to
be briefed and argued, and having
expended our time in considering it, we
should provide an answer.

Freytag, 501 U.S. at 893 (Scalia, J., concurring).
Justice Scalia’s prognostication has proved all too
accurate.
As successful Appointments Clause
challenges have become more frequent, there has been
a proliferation of litigation over the extent to which a
follow-on challenge is forfeited after a change in the
law, with the courts of appeal taking different
approaches to the question. Compare Customedia,
941 F.3d at 1173-74 (Fed. Cir. 2019) (summary
application of forfeiture based on bright line “opening
brief” rule) with Cirko ex rel. Cirko v. Comm’r of Soc.
Sec., 948 F.3d 148 (3d Cir. 2020) (applying detailed

21
balancing of private and public interests to evaluate
forfeiture of right to assert challenge to SEC ALJ’s
appointment following Lucia v. SEC, 585 U.S. ___, 138
S. Ct. 2044 (2018)); David Stanley Consultants v. Dir.,
Office of Workers’ Comp. Programs, 800 F. App’x 123,
127-28 (3d Cir. 2020) (refusing to hear Appointments
Clause challenge in the absence of “extraordinary
circumstances” that excused the appellant’s
forfeiture); Island Creek Coal Co. v. Wilkerson, 910
F.3d 254, 256-57 (6th Cir. 2018) (refusing to hear
challenge to appointment of Benefits Review Board
members on grounds that Lucia made theory of
Appointments Clause violation obvious and appellant
failed to raise issue in its opening brief on appeal);
Jones Bros. v. Sec’y of Labor, 898 F.3d 669, 677 (6th
Cir. 2018) (holding that “the absence of legal authority
addressing
[appellant’s
Appointments
Clause
challenge]” excused forfeiture); see also Bahlul v.
United States, 840 F.3d 757, 760 n.1 (D.C. Cir. 2016)
(en banc) (Kavanaugh, J., concurring) (recognizing
that the court “has discretion to hear even a forfeited
claim de novo” in rare and extraordinarily important
cases and concluding that the structural
constitutional claim should be heard even if forfeited).
The lower courts do not have a workable standard
to apply, even in the narrow set of cases at issue
here—when a successful Appointments Clause
challenge has matured to the point that it carries the
authority of intervening law. The Court need not
address the entire class of nonjurisdictional
constitutional structural objections or even all
Appointments Clause challenges per se, but it should
speak to the impact of a successful Appointments
Clause challenge on pending cases where, as here, the

22
issues is raised promptly. That is a discrete and
narrow question that focuses the issue in a thoroughly
manageable way, given the Court’s existing
Appointments Clause precedents. Moreover, there
are strong public interests at play involving the
credibility of the affected tribunal and the court
system more generally; framing the question as the
court below did in this case as one of private forfeiture
or a judicial foot-fault trivializes a significant
constitutional problem. It is passing strange (and
arguably unconstitutional) for a court to declare a
federal official’s appointment unconstitutional one
day and then insist on enforcing his or her actions the
next. If that is ever the right result, then this Court
should say when.
B.

Recent Cases Demonstrate This Issue Is
Likely to Recur

The issue presented is also likely to recur in
connection with pending and future decisions of the
Federal Circuit. The reach of Arthrex continues to
grow. The Federal Circuit has recently expanded the
class of cases affected by the Customedia forfeiture
rule. In VirnetX Inc. v. Cisco Systems, Inc., No. 20191671, 2020 WL 2511116 (Fed. Cir. Jan. 24, 2020), the
court granted a motion to vacate and remand, under
Arthrex, in an appeal from an inter partes
reexamination.7 As the court subsequently explained,
Arthrex “compels that we reach the same conclusion
7

An inter partes reexamination is an adversarial proceeding
within the Patent Office to determine patent validity. It is the
predecessor to inter partes review and remains available for
certain patents. 35 U.S.C. §§ 311-18 (2006).

23
in the context of inter partes reexaminations [as in
inter partes reviews].” VirnetX Inc. v. Cisco Sys., Inc.,
958 F.3d 1333, 1336-37 (Fed. Cir. 2020). In so holding,
the court noted, in dictum, that “it would appear that
under Freytag vacatur would be appropriate for all
agency actions rendered by those APJs regardless of
the specific type of review proceeding on appeal.” Id.
at 1335. Thus, the appeals affected by the Customedia
waiver rule include at least appeals from decisions in
ex parte reexaminations, and may—depending on
future Federal Circuit rulings—include appeals from
other types of Board proceedings. Yet the issue will
not be any more clearly drawn in these subsequent
cases. Rather, without this Court’s guidance now, the
confusion and damage is only likely to accumulate.
Finally, this Court should take this case
irrespective of whether it grants certiorari in Arthrex.
The government and both parties in that case have
filed petitions for certiorari seeking review of the
Federal Circuit’s determination that APJs are
principal officers and thus unconstitutionally
appointed and of the severance remedy imposed.
Petition for Writ of Certiorari, United States v.
Arthrex, Inc. (June 25, 2020) (No. 19-1434); Petition
for Writ of Certiorari, Smith & Nephew, Inc. v.
Arthrex, Inc. (June 29, 2020) (No. 19-1452); Petition
for Writ of Certiorari, Arthrex, Inc. v. Smith &
Nephew, Inc. (June 30, 2020) (No. 19-1458).8 If the
Several other related petitions are pending. See Petition
for Writ of Certiorari, Sanofi-Aventis Deutschland GmbH v.
Mylan Pharms. Inc. (June 26, 2020) (No. 19-1451); Petition for
Writ of Certiorari, Duke Univ. v. BioMarin Pharm. Inc. (July 2,
2020) (No. 19-1475); Petition for Writ of Certiorari, Arthrex, Inc.
v. Smith & Nephew, Inc. (Apr. 6, 2020) (No. 19-1204). Many
8

24
Court grants certiorari in any of those matters, this
case would certainly be a suitable companion. But
even if it does not grant certiorari in those matters,
the Court should still grant certiorari here because
this case involves a separate and discrete issue that is
important in its own right.
III.

THIS CASE PRESENTS AN IDEAL VEHICLE
TO ADDRESS THIS ISSUE.

This case presents an ideal and clean vehicle for
review of the question presented. There is no dispute
that Arthrex represented a significant change in the
law. There is also no dispute that, following Arthrex,
Essity proceeded with diligence to raise the issue, and
did so before briefing had been completed and before
the case was submitted for decision. There are no
confounding factors as might arise had the appeal
already been submitted or decided, and substantial
judicial resources employed before Essity raised its
challenge.
Indeed, according to Federal Circuit
Internal Operation Procedures, the merits panel had
not even been selected at the time Essity filed its
remand motion. See Court of Appeals for the Federal
Circuit, Internal Operating Procedure No. 3 (Nov. 14,
2008),
http://www.cafc.uscourts.gov/sites/default/files/rulesof-practice/IOPs/IOPsMaster2.pdf (cases are assigned
others still have the opportunity to seek review. See, e.g.,
Huawei Techs. Co. v. Iancu, No. 2019-1493, 2020 WL 2488644,
at *6 n. 1 (Fed. Cir. May 14, 2020) (relying on Customedia);
Boston Sci. Neuromodulation Corp. v. Nevro Corp., No. 20191582, Dkt. No. 56 (Fed. Cir. Nov. 22, 2019) (same); id., Dkt. No.
73 (Fed. Cir. Jan. 23, 2020) (denying reconsideration of forfeiture
order).

25
to merits panels when they are “calendar ready,” i.e.,
when “all briefs and the joint appendix have been
filed.”). Thus, rather than needing to wade into any
complicating considerations of finality, this case
permits the Court to address the square question of
whether and when the judiciary should excuse
ordinary forfeiture rules to enforce an intervening
Appointments Clause precedent.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
Respectfully submitted,
G. Eric Brunstad, Jr.
DECHERT LLP
90 State House Square
Hartford, CT 06103
Stephen S. Rabinowitz
Mitchell E. Epner
DECHERT LLP
Three Bryant Park
1095 Ave. of the Americas
New York, NY 10036

Martin J. Black

Counsel of Record

Michael H. McGinley
Kevin M. Flannery
DECHERT LLP
2929 Arch Street
Philadelphia, PA 19104
(215) 994-4000
martin.black@dechert.com

Counsel for Petitioners
Dated: July 24, 2020

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED MAY 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1736, 2019-1741
ESSITY HYGIENE AND HEALTH AB,
Appellant,
v.
CASCADES CANADA ULC, TARZANA
ENTERPRISES, LLC,
Appellees.
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201701902, IPR2017-01921.
May 8, 2020, Decided
Before Prost, Chief Judge, M ayer and Dyk,
Circuit Judges.
Prost, Chief Judge.
In this consolidated appeal, Essity Hygiene and Health
AB appeals two final written decisions in inter partes

2a
Appendix A
review proceedings before the Patent Trial and Appeal
Board (“Board”). These proceedings challenged two
related patents, U.S. Patent Nos. 8,597,761 and 9,320,372
(respectively, “the ’761 patent” and “the ’372 patent”). The
Board determined that petitioners Cascades Canada ULC
and Tarzana Enterprises LLC (collectively “Cascades”)
met their burden of showing that all challenged claims
are unpatentable as either anticipated under 35 U.S.C. §
102(b)1 or rendered obvious under 35 U.S.C. § 103(a) by
the cited prior art. We affirm.
I
A
The ’761 and ’372 patents share a common specification
and are directed to stacks of interfolded absorbent sheet
products commonly known as “napkins.” The napkins
of the claimed invention “comprise a first fold that is
deliberately offset from a parallel line bisecting the sheet,
and a second fold that preferably bisects the sheet in the
perpendicular direction.” ’761 patent col. 2 ll. 8-11. 2 The
offset fold causes a napkin’s panels to be asymmetrical
such that the dimensions of certain panels are smaller
than the dimensions of other panels. See, e.g., ’761 patent
col. 3 ll. 11-17; see also id. at Fig. 3. The folded napkins
1. The claims at issue in this case have effective filing dates
prior to March 16, 2013. We therefore apply pre-AIA § 102(b).
2. For ease of reference, all citations to the common specification
are made to the ’761 patent. These citations likewise support the ’372
patent.

3a
Appendix A
are arranged in a stack by interfolding sheets of adjacent
napkins such that a panel of an upper napkin in a stack is
placed between the panels of a lower napkin. See, e.g., ’761
patent col. 6 ll. 21-25, 33-39; see also id. at Figs. 4a & 4b.
Claim 1 of ’761 patent is the sole independent claim
and is representative of the issues on appeal. Claim 1 of
the ’761 patent recites:
1. A stack of interfolded absorbent sheet
products, comprising:
a plurality of absorbent sheets
wherein each sheet comprises a first fold
that is offset from a line bisecting said sheet
substantially parallel to said first fold, and
an interfolding fold that is substantially
perpendicular to said first fold,
wherein the first fold is unidirectionally peaked,
wherein panels defined by the first fold of each
sheet directly contact each other, and
wherein at least one of the panels defined by
the interfolding fold of each sheet is inserted
between two panels defined by the interfolding
fold of another sheet in the stack.
’761 patent claim 1.

4a
Appendix A
Claim 1 of the ’372 patent is the sole independent claim
and is representative of the issues on appeal. Claim 1 of
the ’372 patent recites:
1. A stack of interfolded absorbent sheet
products, comprising
a plurality of absorbent sheets,
wherein each sheet comprises a first fold
that is offset from a line bisecting said sheet
substantially parallel to said first fold, and an
interfolding fold intersecting said first fold,
wherein said first fold, said intersecting fold,
and the outer edges of each of the absorbent
sheets define boundaries for four panels,
with the panels on opposing sides of the first
fold having different lengths and contacting
each other in the stack, and
wherein each of said absorbent sheets within
said stack comprises at least one pair of panels
sandwiched between a pair of adjacent panels
of another of said absorbent sheets within said
stack.
’372 patent claim 1.

5a
Appendix A
B
Cascades’s petitions asserted several grounds of
unpatentability based, in relevant part, on U.S. Patent
No. 6,602,575 (“Grosriez”), J.A. 344-53, and U.S. Patent
Publication No. 2005/0058807 (“Hochtritt”), J.A. 152-61.
Grosriez describes stacks of interleaved, absorbent
sheets for use in dispensers. The napkins in Grosriez each
have “a longitudinal fold line forming a longitudinal border
and at least one transverse fold line perpendicular to the
longitudinal fold line.” Grosriez col. 1 ll. 7-11. Grosriez
describes two alternative embodiments of its absorbent
sheets, one “folded into four equal parts” and another
wherein “the longitudinal fold line delimits two sections,
the transverse dimension one of which differs from the
transverse dimension of the other.” See Grosriez col. 4 ll.
42-45, ll. 51-54. Grosriez further describes “[i]ntertwining
the folded sheets” and explains that intertwining “makes
it possible . . . for the lower panel of the upper sheet to
carry (by virtue of the friction forces) the upper panel
of the intermediate folded sheet out of the opening [of a
dispenser].” Grosriez col. 5 ll. 60-65 (internal references
to element numbers omitted).
Hochtritt relates to a stack of interfolded sheet
products that “comprises a plurality of absorbent sheets
each of which is itself folded at least twice about axes that
are perpendicular to one another,” wherein “[e]ach of the
absorbent sheets within the stack comprises at least one
pair of panels sandwiched between a pair of adjacent
panels of another of the absorbent sheets in the stack.”
Hochtritt Abstract.

6a
Appendix A
C
Cascades filed IPR2017-01902 and IPR2017-01921,
respectively challenging claims 1-26 of the ’761 patent
and claims 1-20 of the ’372 patent. Following the Supreme
Court’s decision in SAS Institute Inc. v Iancu, 138 S.
Ct. 1348, 200 L. Ed. 2d 695 (2018), the Board instituted
review on all grounds in both proceedings. Relevant
to this appeal, the Board issued final written decisions
finding that Cascades had met its burden of proving
unpatentability with respect to the following grounds: (1)
claims 1-3, 8, 9, 12, 13 and 23 of the ’761 patent and claims
1-3, 8, 9, 12 and 13 of the ’372 patent are anticipated by
Grosriez; (2) claims 1-3, 6-23, and 26 of the ’761 patent
and claims 1-3 and 6-20 of the ’372 patent are rendered
obvious by Hochtritt; and (3) claims 1-26 of the ’761 patent
and claims 1-20 of the ’372 patent are rendered obvious by
Hochtritt in combination with Grosriez. See Cascades Can.
ULC v. Essity Hygiene & Health AB, No. IPR2017-01902,
Paper 51 (PTAB Feb. 1, 2019) (“902 Decision”); Cascades
Can. ULC v. Essity Hygiene & Health AB, No. IPR201701921, Paper 51 (PTAB Feb. 1, 2019) (“921 Decision”).
Essity timely appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(4)(A).
II
Anticipation is a question of fact and obviousness is a
question of law based on underlying facts. Microsoft Corp.
v. Biscotti, Inc., 878 F.3d 1052, 1068 (Fed. Cir. 2017); In re
Gartside, 203 F.3d 1305, 1316 (Fed. Cir. 2000). We review

7a
Appendix A
the Board’s factual findings for substantial evidence and
the Board’s legal conclusions de novo. IPCom GmbH &
Co. v. HTC Corp., 861 F.3d 1362, 1369 (Fed. Cir. 2017).
“Substantial evidence . . . means such relevant evidence
as a reasonable mind might accept as adequate to support
a conclusion.” Consol. Edison Co. v. NLRB, 305 U.S. 197,
229, 59 S. Ct. 206, 83 L. Ed. 126 (1938).
On appeal, Essity argues that the Board’s finding that
the claims of the ’761 and ’372 patents are unpatentable
should be reversed for two reasons. First, Essity argues
that there is no substantial evidence to support the
Board’s finding that certain claims of the ’761 and ’372
patents are anticipated by Grosriez. Second, Essity
argues that the Board’s misreading of Grosriez infected
its obviousness analysis and led the Board to erroneously
disregard evidence of non-obviousness. We find Essity’s
arguments unpersuasive and affirm the Board’s final
written decisions for the reasons below.
A
Essity first argues that there is no substantial evidence
to support the Board’s findings that Grosriez anticipates
claims 1-3, 8, 9, 12, 13, and 23 of the ’761 patent and claim
1-3, 8, 9, 12 and 13 of the ’372 patent. More specifically,
Essity argues that the Board misread separate disclosures
in Grosriez to disclose an embodiment including “a stack
of intertwined, offset-folded napkins” that is not actually
taught. Appellant’s Br. 18. We disagree and conclude the
Board’s decisions are supported by substantial evidence.

8a
Appendix A
The Board correctly found that Grosriez describes two
alternative napkins, including one wherein the dimensions
differ between the transverse sections of the folded sheet.
902 Decision at 19-20 (quoting Grosriez col. 4 ll. 51-54);
921 Decision at 19 (same). The Board then correctly
found that Grosriez explains that the folded sheets “can
be intertwined[.]” 902 Decision at 20 (quoting Grosriez
col. 5 ll. 54-59); 921 Decision at 20 (same). Based on these
disclosures, and the supporting evidence offered by both
parties, the Board reasonably concluded that Grosriez
teaches each of the disputed limitations of claim 1. 902
Decision at 20-23; 921 Decision at 20-23. The Board
further concluded that Cascades had met its burden of
proving anticipation by Grosriez with respect to claims
1-3, 8, 9, 12, 13, and 23 of the ’761 patent and claim 1-3, 8,
9, 12 and 13 of the ’372 patent. See 902 Decision at 23-25;
921 Decision at 23-25.
We reject Essity’s argument that the Board incorrectly
combined Grosriez’s disclosure based on a misreading
of Grosriez. Essity bases its argument on Grosriez’s
statement that “[t]he remainder of the description will
relate, non-limitingly, to a supple sheet 36 folded in four.”
Appellant’s Br. 16 (quoting Grosriez col. 4 ll. 60-61).
According to Essity, the reference to supple sheet 36,
which is an embodiment with four equal parts, means that
the remaining disclosure, including that the napkins may
be intertwined in a stack, is limited to an embodiment
with four equal parts. But, as Cascades argues in
response, Essity ignores that Grosriez expressly states
that its reference to supple sheet 36 is “non-limiting[].”
Appellee’s Br. 21, 43 (quoting Grosriez col. 4 ll. 60-61).

9a
Appendix A
Further, we conclude that the Board carefully considered
and reasonably rejected Essity’s evidence that a person
of ordinary skill reading Grosriez would not intertwine
napkins having panels of differing dimensions. We
therefore determine the Board’s decisions are supported
by substantial evidence.
Accordingly, we affirm the Board’s decisions that
claims 1-3, 8, 9, 12, 13, and 23 of the ’761 patent and claim
1-3, 8, 9, 12 and 13 of the ’372 patent are anticipated by
Grosriez.
B
Essity next argues that the Board erroneously held
that claims 1-3, 6-23, and 26 of the ’761 patent and claims
1-3 and 6-20 of the ’372 patent are obvious over Hochtritt
alone, and that claims 1-26 of the ’761 patent and claims
1-20 of the ’372 patent are obvious over Hochtritt in
combination with Grosriez.
In its final written decisions, the Board found that
Hochtritt does not expressly disclose a “first fold that is
offset,” but also found that it would have been obvious to
modify Hochtritt’s interfolded sheets to have an offset first
fold, including the offset fold disclosed by Grosriez. 902
Decision at 16-18, 25-32; 921 Decision at 15-18. The Board
found that the record, including Essity’s own evidence,
showed that offset folds were well-known in the art. And
after reviewing the parties’ arguments and evidence, it
concluded that Cascades had shown by a preponderance
of the evidence that Hochtritt teaches or suggests all

10a
Appendix A
of the limitations of claims 1-3, 6-23, and 26 of the ’761
patent and claims 1-3 and 6-20 of the ’372 patent. See
902 Decision at 25-36; 921 Decision at 25-35. The Board
further concluded that Cascades had met its burden of
proving obviousness with respect to claims challenged
over Hochtritt and Grosriez. See 902 Decision at 36-42;
921 Decision at 35-41.
On appeal, Essity argues that the Board’s misreading
of Grosriez infected its obviousness analysis, causing it to
improperly discount or ignore Essity’s evidence of nonobviousness. Essity argues that it showed that Grosriez’s
disclosure would have discouraged the combination of
Hochtritt’s interfolded sheets with Grosriez’s alternative,
offset embodiment, and that such a combination would
have been expected to create difficulties in manufacturing,
packaging, and dispensing the resulting product.
As stated above, we do not agree that the Board
misread Grosriez. See supra § II(A). We also do not find
that the Board erred in considering whether the prior
art rendered the challenged claims obvious. With respect
to Essity’s additional arguments, we find that Essity’s
arguments lack merit and detect no error in the Board’s
obviousness analysis.
Accordingly, we affirm the Board’s decisions that the
challenged claims of the ’761 and ’372 patents are rendered
obvious by Hochtritt, either alone or in combination with
Grosriez.

11a
Appendix A
III
We have considered each of Essity’s arguments on
appeal and find them unpersuasive. We therefore affirm
the Board’s decision that Cascades met its burden of
proving that claims 1-26 of the ’761 patent and claims 1-20
of the ’372 patent are unpatentable.
AFFIRMED

12a
Appendix B — Appendix
opinionBof the UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED MAY 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1742
ESSITY PROFESSIONAL HYGIENE
NORTH AMERICA LLC,
Appellant,
v.
CASCADES CANADA ULC,
Appellee.
May 8, 2020, Decided
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201702198.
Prost, Chief Judge.
Essity Professional Hygiene North America LLC
appeals a final written decision in an inter partes review
from the Patent Trial and Appeal Board. The Board held
that petitioner Cascades Canada ULC had met its burden
to show that the claims of U.S. Patent No. 8,273,443 (“the
’443 patent”) are rendered obvious by the prior art of

13a
Appendix B
record. On appeal, Essity argues that the Board erred
in finding claims 2, 7, and 11 of the ’443 patent obvious
by placing the burden on it to negate a motivation to
combine and by failing to consider objective evidence of
nonobviousness. For the below-described reasons, we
affirm.
I
A
The ’443 patent is directed to a “stack of interfolded
absorbent sheet products,” otherwise known as “napkins.”
’443 patent Abstract. The only claims on appeal are
dependent claims 2, 7, and 11. Each of these claims recite
a single limitation, requiring that “each napkin within
[a] stack is oriented oppositely from each preceding and
succeeding napkin within said stack.” See, e.g., id. at claim
2. The interleaving of napkins with opposite orientation is
shown by Figure 2(b). See id. at col. 4 ll. 50-55.

14a
Appendix B
Appellant’s Br. 4 (annotating ’443 patent Fig 2(b) to show
one napkin in green and the succeeding napkin in yellow
oppositely oriented).
B
Cascades petitioned for review of claims 1-15 of the
’443 patent. Following the Supreme Court’s decision in
SAS Institute Inc. v. Iancu, 138 S. Ct. 1348, 200 L. Ed.
2d 695 (2018), the Board instituted review on all grounds.
In its final written decision, the Board determined that
Cascades had met its burden of proving that all challenged
claims are unpatentable as obvious over the prior art of
record. Cascades Can. ULC v. Essity Prof’l Hygiene N.A.
LLC, No. IPR2017-02198, Paper 40 (PTAB Feb. 25, 2019)
(“Board Decision”).
With respect to claims 2, 7, and 11, the Board
determined that Cascades had met its burden to prove the
claims are obvious based on the combination of Teall1 in
view of Heath 2 or ASTM-D4560, 3 and Wheeler.4 Relevant
to this appeal, the Board found that Teall does not teach
1. U.S. Patent No. 1,290,801, issued Jan. 7, 1919 (J.A. 549555).
2. U.S. Patent No. 6,699,360 B2, issued Mar. 2, 2004 (J.A.
575-635).
3. ASTM-D4560, Standard Specification for Paper Napkins
for Industrial and Institutional Use, Am. Soc. for Testing &
Materials (Dec. 1992) (J.A. 570-72).
4. U.S. Patent No. 1,430,709, issued Oct. 3, 1922 (J.A. 142-45).

15a
Appendix B
oppositely oriented interleaving but that such interleaving
was taught by Wheeler. See Board Decision at 27-30,
40-41. More particularly, the Board found that Wheeler
demonstrates that there are only two possible orientations
for interleaving napkins, i.e., same or opposite orientation.
Id. at 30. After reviewing the parties’ evidence, the
Board concluded that based on the knowledge in the
art, Cascades had “persuasively demonstrate[d] that
oppositely orienting the napkins of Teall would have
provided a known, predictable result.” Id.; see also id. at
28 (citing KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 416,
127 S. Ct. 1727, 167 L. Ed. 2d 705 (2007)). Accordingly,
the Board concluded that Cascades had met its burden
of proving that claims 2, 7, and 11, are rendered obvious
by the cited prior art. See id. at 30, 40-41.
Essity timely appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(4)(A).
II
Obviousness is a question of law based on underlying
facts. In re Gartside, 203 F.3d 1305, 1316 (Fed. Cir. 2000).
The presence or absence of a motivation to combine
references in an obviousness determination is a question
of fact. Id. We review the Board’s factual findings for
substantial evidence and the Board’s legal conclusions de
novo. IPCom GmbH & Co. v. HTC Corp., 861 F.3d 1362,
1369 (Fed. Cir. 2017). “Substantial evidence . . . means
such relevant evidence as a reasonable mind might accept
as adequate to support a conclusion.” Consol. Edison Co.
v. NLRB, 305 U.S. 197, 229, 59 S. Ct. 206, 83 L. Ed. 126
(1938).

16a
Appendix B
On appeal, Essity does not dispute that each of the
limitations in claims 2, 7, and 11 are disclosed by the prior
art. See Appellant’s Br. 7-9. Rather, Essity argues that
the Board’s obviousness determination must be reversed
because the Board erroneously shifted the burden to
Essity, requiring it to disprove a motivation to combine
the prior art, and because the Board failed to consider
objective evidence of nonobviousness. We find Essity’s
arguments unpersuasive and, for the reasons described
below, affirm the Board’s decision.
A
Essity first argues that the Board erred in its
obviousness analysis by shifting the burden to Essity
to disprove a motivation to combine the cited prior art.
Appellant’s Br. 19 (citing 35 U.S.C. § 316(e) and Dynamic
Drinkware, LLC v. Nat’l Graphics, Inc., 800 F.3d 1375,
1378 (Fed. Cir. 2015)). Though we agree that the burden of
proving unpatentability lies with the petitioner in an inter
partes review proceeding, see 35 U.S.C. § 316(e), we do not
find the Board improperly shifted the burden in this case.
In conducting its obviousness analysis of claims 2, 7,
and 11, the Board correctly kept the burden of proving
unpatentability on Cascades and reasonably found that
Cascades had met that burden. The Board found that
Cascades presented evidence showing it would have been
obvious to a person of ordinary skill in the art to form a
stack of napkins by interleaving napkins in either the same
or opposite orientation. Board Decision at 28-29. And the
Board correctly considered the Supreme Court’s guidance
in KSR that “[t]he combination of familiar elements

17a
Appendix B
according to known methods is likely to be obvious
when it does no more than yield predictable results. Id.
at 28 (citing KSR, 550 U.S. at 416). After reviewing the
arguments and evidence presented by both parties, the
Board determined that Cascades had persuasively shown
that the combination of Teall and Wheeler would have
“provided a known, predictable result” and therefore
concluded that Cascades had met its burden of proving
unpatentablility. Id. at 30.
We reject Essity’s suggestion that the Board’s
statements refuting Essity’s evidence amount to shifting
the burden to Essity to disprove a motivation to combine.
See Appellant’s Br. 17-19. It was proper for the Board to
identify the failures in Essity’s arguments. See Ignite USA,
LLC v. CamelBak Prods., LLC, 709 F. App’x 1010, 1016
(Fed. Cir. 2017) (“[E]xplaining why a party’s arguments
are not persuasive does not constitute improper burden
shifting.”). To be sure, the Board is required to provide
a reasoned basis for its decision in order to permit this
court to exercise our duty to review the Board’s decision.
See SEC v. Chenery Corp., 318 U.S. 80, 94, 63 S. Ct. 454,
87 L. Ed. 626 (1943); In re Nuvasive, Inc., 842 F.3d 1376,
1382 (Fed. Cir. 2016).
Accordingly, we affirm the Board’s conclusion that
Cascades met its burden of proving claims 2, 7, and 11
are obvious over the cited prior art.

18a
Appendix B
B
Essity next argues that the Board erred by failing to
consider objective evidence of nonobviousness. Specifically,
Essity argues that the Board failed to account for the fact
that both Teall and Wheeler have been available in the
prior art for almost a century. Essity asserts that the
Board erroneously “ignored the age of the references”
and “used age as a motivation to combine.” Appellant’s
Br. 28. We disagree.
Notwithstanding the contradiction between Essity’s
position that the Board both ignored and relied on the
age of the references, we find the Board reasonably
considered the arguments and evidence presented. As an
initial matter, it is not clear from the record that Essity
plainly advanced to the Board the same arguments based
on objective evidence of nonobviousness that Essity now
argues the Board ignored. See Fresenius USA, Inc. v.
Baxter Int’l, Inc., 582 F.3d 1288, 1296 (Fed. Cir. 2009) (“If
a party fails to raise an argument before the trial court,
or presents only a skeletal or undeveloped argument to
the trial court, we may deem that argument waived on
appeal.”). But even assuming Essity’s argument was
appropriately preserved, the age of the Teall and Wheeler
is insufficient to prove the challenged claims are not
obvious. See, e.g., In re Ethicon, Inc., 844 F.3d 1344, 1352
(Fed. Cir. 2017) (“The mere age of the references is not
persuasive of the unobviousness of the combination of
their teachings, absent evidence that, notwithstanding
knowledge of the references, the art tried and failed to
solve the problem.” (internal citation omitted)).

19a
Appendix B
Essity admits that the age of the references alone does
“not suffice to show nonobviousness,” but argues that “in
the proper context,” the age constitutes objective evidence
of nonobviousness. Appellant’s Br. 25. Essity, however,
fails to identify any evidence purporting to show that this
is such a context. The record instead shows that the Board
accounted for the age of the references and found that in
this case, the age showed that that “orienting napkins
oppositely in a stack has been known for 100 years,” not
that the claimed invention is nonobvious. Board Decision
at 27-28.
Accordingly, based on the record in this case, we find
no error in the Board’s obviousness analysis.
III
We have considered each of Essity’s arguments and
find them unpersuasive. We therefore affirm the Board’s
decision that Cascades met its burden of proving that
claims 2, 7, and 11 of the ’443 patent are unpatentable as
obvious over the prior art of record.
AFFIRMED

20a
C the united
Appendix C —Appendix
ORDER of
states court of appeals FOR THE
FEDERAL CIRCUIT, filed november 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
ESSITY HYGIENE AND HEALTH AB,
Appellant,
v.
CASCADES CANADA ULC, TARZANA
ENTERPRISES, LLC,
Appellees.
2019-1736, -1741
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201701902 and IPR2017-01921.
ON MOTION
Before LOURIE, Circuit Judge.
ORDER
Essity Hygiene and Health AB move to vacate the decision of the Patent Trial and Appeal Board and remand
for a new hearing before a differently constituted panel

21a
Appendix C
in light of this court’s recent decision in Arthrex, Inc. v.
Smith & Nephew, Inc., No. 2018-2140, 2019 WL 5616010
(Fed. Cir. Oct. 31, 2019). The government moves to stay
proceedings or alternatively for an extension of time to
intervene and respond to Essity’s motion.
The court concludes that the Appointments Clause
challenge in this case was forfeited. See Customedia
Techs., LLC v. Dish Network Corp., No. 2018-2239 et al.,
2019 WL 5677703 (Fed. Cir. Nov. 1, 2019). Essity’s motion
is therefore denied. The government’s motion for a stay
or extension is likewise denied.
Accordingly,
IT IS ORDERED THAT:
(1) The motions are denied.
(2) The stay is lifted. The appellees’ response brief is
due no later than 40 days of the date of filing of this order.
FOR THE COURT
November 25, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

22a
Appendix D —Appendix
ORDER D
of the United
States Court of Appeals for the
Federal Circuit, FILED NOVEMBER 25, 2019
United States Court of Appeals
for the Federal Circuit
2019-1742
ESSITY PROFESSIONAL HYGIENE
NORTH AMERICA LLC,
Appellant,
v.
CASCADES CANADA ULC,
Appellee.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201702198.
In Motion
Before Lourie, Circuit Judge.
ORDER
Essity Professional Hygiene North America LLC
moves to vacate the decision of the Patent Trial and Appeal
Board and remand for a new hearing before a differently
constituted panel in light of this court’s recent decision

23a
Appendix D
in Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140,
2019 WL 5616010 (Fed. Cir. Oct. 31, 2019).
The government moves to stay proceedings or
alternatively for an extension of time to intervene and
respond to Essity’s motion.
The court concludes that the Appointments Clause
challenge in this case was forfeited. See Customedia
Techs., LLC v. Dish Network Corp., No. 2018-2239 et al.,
2019 WL 5677703 (Fed. Cir. Nov. 1, 2019). Essity’s motion
is therefore denied. The government’s motion for a stay
or extension is likewise denied.
Accordingly,
It Is Ordered That:
(1) The motions are denied.
(2) The stay is lifted. The joint appendix is due no later
than 7 days from the date of filing of this order.
For the Court
November 25, 2019
/s/ Peter R. Marksteiner
Date 	Peter R. Marksteiner
Clerk of Court

24a
Appendix
E
APPENDIX
E — RELEVANT
STATUTORY PROVISIONS
35 U.S.C. § 3 (2012)
§ 3. Officers and employees
(a) Under Secretary and Director.-(1) In general.--The powers and duties of the United
States Patent and Trademark Office shall be vested
in an Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent
and Trademark Office (in this title referred to as the
“Director”), who shall be a citizen of the United States
and who shall be appointed by the President, by and
with the advice and consent of the Senate. The Director
shall be a person who has a professional background
and experience in patent or trademark law.
(2) Duties.-(A) In general.--The Director shall be responsible
for providing policy direction and management
supervision for the Office and for the issuance
of patents and the registration of trademarks.
The Director shall perform these duties in a fair,
impartial, and equitable manner.
(B) Consulting with the public advisor y
committees.--The Director shall consult with the
Patent Public Advisory Committee established in
section 5 on a regular basis on matters relating to
the patent operations of the Office, shall consult

25a
Appendix E
with the Trademark Public Advisory Committee
established in section 5 on a regular basis on
matters relating to the trademark operations of the
Office, and shall consult with the respective Public
Advisory Committee before submitting budgetary
proposals to the Office of Management and Budget
or changing or proposing to change patent or
trademark user fees or patent or trademark
regulations which are subject to the requirement to
provide notice and opportunity for public comment
under section 553 of title 5, as the case may be.
(3) Oath.--The Director shall, before taking office, take
an oath to discharge faithfully the duties of the Office.
(4) Removal.--The Director may be removed from
office by the President. The President shall provide
notification of any such removal to both Houses of
Congress.
(b) Officers and Employees of the Office.-(1) Deputy under secretary and deputy director.-The Secretary of Commerce, upon nomination by the
Director, shall appoint a Deputy Under Secretary
of Commerce for Intellectual Property and Deputy
Director of the United States Patent and Trademark
Office who shall be vested with the authority to act in
the capacity of the Director in the event of the absence
or incapacity of the Director. The Deputy Director
shall be a citizen of the United States who has a
professional background and experience in patent or
trademark law.

26a
Appendix E
(2) Commissioners.-(A) Appointment and duties.--The Secretary
of Commerce shall appoint a Commissioner for
Patents and a Commissioner for Trademarks,
without regard to chapter 33, 51, or 53 of title 5.
The Commissioner for Patents shall be a citizen of
the United States with demonstrated management
ability and professional background and experience
in patent law and serve for a term of 5 years. The
Commissioner for Trademarks shall be a citizen of
the United States with demonstrated management
ability and professional background and experience
in trademark law and serve for a term of 5 years. The
Commissioner for Patents and the Commissioner
for Trademarks shall serve as the chief operating
officers for the operations of the Office relating to
patents and trademarks, respectively, and shall be
responsible for the management and direction of all
aspects of the activities of the Office that affect the
administration of patent and trademark operations,
respectively. The Secretary may reappoint a
Commissioner to subsequent terms of 5 years
as long as the performance of the Commissioner
as set forth in the performance agreement in
subparagraph (B) is satisfactory.
(B) Salary and performance agreement.--The
Commissioners shall be paid an annual rate of basic
pay not to exceed the maximum rate of basic pay
for the Senior Executive Service established under
section 5382 of title 5, including any applicable
locality-based comparability payment that may

27a
Appendix E
be authorized under section 5304(h)(2)(C) of title
5. The compensation of the Commissioners shall
be considered, for purposes of section 207(c)(2)(A)
of title 18, to be the equivalent of that described
under clause (ii) of section 207(c)(2)(A) of title
18. In addition, the Commissioners may receive
a bonus in an amount of up to, but not in excess
of, 50 percent of the Commissioners’ annual
rate of basic pay, based upon an evaluation by
the Secretary of Commerce, acting through the
Director, of the Commissioners’ performance
as defined in an annual performance agreement
between the Commissioners and the Secretary. The
annual performance agreements shall incorporate
measurable organization and individual goals in
key operational areas as delineated in an annual
performance plan agreed to by the Commissioners
and the Secretary. Payment of a bonus under this
subparagraph may be made to the Commissioners
only to the extent that such payment does not cause
the Commissioners’ total aggregate compensation
in a calendar year to equal or exceed the amount
of the salary of the Vice President under section
104 of title 3.
(C) Removal.- -The Commissioners may be
removed from off ice by the Secreta r y for
misconduct or nonsatisfactory performance
under the performance agreement described in
subparagraph (B), without regard to the provisions
of title 5. The Secretary shall provide notification
of any such removal to both Houses of Congress.

28a
Appendix E
(3) Other officers and employees.--The Director
shall-(A) appoint such officers, employees (including
attorneys), and agents of the Office as the Director
considers necessary to carry out the functions of
the Office; and
(B) define the title, authority, and duties of such
officers and employees and delegate to them such
of the powers vested in the Office as the Director
may determine.
The Office shall not be subject to any administratively
or statutorily imposed limitation on positions or
personnel, and no positions or personnel of the
Office shall be taken into account for purposes of
applying any such limitation.
(4) Training of examiners.--The Office shall submit
to the Congress a proposal to provide an incentive
program to retain as employees patent and trademark
examiners of the primary examiner grade or higher
who are eligible for retirement, for the sole purpose of
training patent and trademark examiners.
(5) National security positions.--The Director,
in consultation with the Director of the Office of
Personnel Management, shall maintain a program
for identifying national security positions and
providing for appropriate security clearances, in
order to maintain the secrecy of certain inventions,

29a
Appendix E
as described in section 181, and to prevent disclosure
of sensitive and strategic information in the interest
of national security.
(6) Administrative patent judges and administrative
trademark judges.--The Director may fix the rate
of basic pay for the administrative patent judges
appointed pursuant to section 6 and the administrative
trademark judges appointed pursuant to section 17
of the Trademark Act of 1946 (15 U.S.C. 1067) at not
greater than the rate of basic pay payable for level
III of the Executive Schedule under section 5314 of
title 5. The payment of a rate of basic pay under this
paragraph shall not be subject to the pay limitation
under section 5306(e) or 5373 of title 5.
(c) Continued Applicability of Title 5.--Officers and
employees of the Office shall be subject to the provisions
of title 5, relating to Federal employees.
(d) Adoption of Existing Labor Agreements.--The Office
shall adopt all labor agreements which are in effect, as
of the day before the effective date of the Patent and
Trademark Office Efficiency Act, with respect to such
Office (as then in effect).
(e) Carryover of Personnel.-(1) From PTO.--Effective as of the effective date of
the Patent and Trademark Office Efficiency Act, all
officers and employees of the Patent and Trademark
Office on the day before such effective date shall

30a
Appendix E
become officers and employees of the Office, without
a break in service.
(2) Other personnel.--Any individual who, on the day
before the effective date of the Patent and Trademark
Office Efficiency Act, is an officer or employee of the
Department of Commerce (other than an officer or
employee under paragraph (1)) shall be transferred
to the Office, as necessary to carry out the purposes
of that Act, if-(A) such individual serves in a position for which
a major function is the performance of work
reimbursed by the Patent and Trademark Office,
as determined by the Secretary of Commerce;
(B) such individual serves in a position that
performed work in support of the Patent and
Trademark Office during at least half of the
incumbent’s work time, as determined by the
Secretary of Commerce; or
(C) such transfer would be in the interest of
the Office, as determined by the Secretary of
Commerce in consultation with the Director.
Any transfer under this paragraph shall be
effective as of the same effective date as referred
to in paragraph (1), and shall be made without a
break in service.

31a
Appendix E
(f) Transition Provisions.-(1) Interim appointment of director.--On or after
the effective date of the Patent and Trademark
Office Efficiency Act, the President shall appoint
an individual to serve as the Director until the date
on which a Director qualifies under subsection (a).
The President shall not make more than one such
appointment under this subsection.
(2) Continuation in office of certain officers.--(A)
The individual serving as the Assistant Commissioner
for Patents on the day before the effective date of the
Patent and Trademark Office Efficiency Act may serve
as the Commissioner for Patents until the date on
which a Commissioner for Patents is appointed under
subsection (b).
(B) The individual serving as the Assistant
Commissioner for Trademarks on the day before the
effective date of the Patent and Trademark Office
Efficiency Act may serve as the Commissioner for
Trademarks until the date on which a Commissioner
for Trademarks is appointed under subsection (b).

32a
Appendix E
35 U.S.C. § 311 (2012)
§ 311. Inter partes review
(a) In General.--Subject to the provisions of this chapter,
a person who is not the owner of a patent may file with the
Office a petition to institute an inter partes review of the
patent. The Director shall establish, by regulation, fees
to be paid by the person requesting the review, in such
amounts as the Director determines to be reasonable,
considering the aggregate costs of the review.
(b) Scope.--A petitioner in an inter partes review may
request to cancel as unpatentable 1 or more claims of a
patent only on a ground that could be raised under section
102 or 103 and only on the basis of prior art consisting of
patents or printed publications.
(c) Filing Deadline.--A petition for inter partes review
shall be filed after the later of either-(1) the date that is 9 months after the grant of a patent;
or
(2) if a post-grant review is instituted under chapter
32, the date of the termination of such post-grant
review.

33a
Appendix E
35 U.S.C. § 312 (2012)
§ 312. Petitions
(a) Requirements of Petition.--A petition filed under
section 311 may be considered only if-(1) the petition is accompanied by payment of the fee
established by the Director under section 311;
(2) the petition identifies all real parties in interest;
(3) the petition identifies, in w riting and w ith
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the
evidence that supports the grounds for the challenge
to each claim, including-(A) copies of patents and printed publications that
the petitioner relies upon in support of the petition;
and
(B) affidavits or declarations of supporting
evidence and opinions, if the petitioner relies on
expert opinions;
(4) the petition provides such other information as the
Director may require by regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and (4)
to the patent owner or, if applicable, the designated
representative of the patent owner.

34a
Appendix E
(b) Public Availability.--As soon as practicable after the
receipt of a petition under section 311, the Director shall
make the petition available to the public.

35a
Appendix E
35 U.S.C. § 313 (2012)
§ 313. Preliminary response to petition
If an inter partes review petition is filed under section 311,
the patent owner shall have the right to file a preliminary
response to the petition, within a time period set by the
Director, that sets forth reasons why no inter partes
review should be instituted based upon the failure of the
petition to meet any requirement of this chapter.

36a
Appendix E
35 U.S.C. § 314 (2012)
§ 314. Institution of inter partes review
(a) Threshold.--The Director may not authorize an
inter partes review to be instituted unless the Director
determines that the information presented in the petition
filed under section 311 and any response filed under section
313 shows that there is a reasonable likelihood that the
petitioner would prevail with respect to at least 1 of the
claims challenged in the petition.
(b) Timing.--The Director shall determine whether
to institute an inter partes review under this chapter
pursuant to a petition filed under section 311 within 3
months after-(1) receiving a preliminary response to the petition
under section 313; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(c) Notice.--The Director shall notify the petitioner and
patent owner, in writing, of the Director’s determination
under subsection (a), and shall make such notice available
to the public as soon as is practicable. Such notice shall
include the date on which the review shall commence.
(d) No Appeal.--The determination by the Director
whether to institute an inter partes review under this
section shall be final and nonappealable.

37a
Appendix E
35 U.S.C. § 315 (2012)
§ 315. Relation to other proceedings or actions
(a) Infringer’s Civil Action.-(1) Inter partes review barred by civil action.--An
inter partes review may not be instituted if, before the
date on which the petition for such a review is filed, the
petitioner or real party in interest filed a civil action
challenging the validity of a claim of the patent.
(2) Stay of civil action.--If the petitioner or real party
in interest files a civil action challenging the validity
of a claim of the patent on or after the date on which
the petitioner files a petition for inter partes review
of the patent, that civil action shall be automatically
stayed until either-(A) the patent owner moves the court to lift the
stay;
(B) the patent owner files a civil action or
counterclaim alleging that the petitioner or real
party in interest has infringed the patent; or
(C) the petitioner or real party in interest moves
the court to dismiss the civil action.
(3) Treatment of counterclaim.--A counterclaim
challenging the validity of a claim of a patent does
not constitute a civil action challenging the validity
of a claim of a patent for purposes of this subsection.

38a
Appendix E
(b) Patent Owner’s Action.--An inter partes review may
not be instituted if the petition requesting the proceeding
is filed more than 1 year after the date on which the
petitioner, real party in interest, or privy of the petitioner
is served with a complaint alleging infringement of the
patent. The time limitation set forth in the preceding
sentence shall not apply to a request for joinder under
subsection (c).
(c) Joinder.--If the Director institutes an inter partes
review, the Director, in his or her discretion, may join as a
party to that inter partes review any person who properly
files a petition under section 311 that the Director, after
receiving a preliminary response under section 313 or
the expiration of the time for filing such a response,
determines warrants the institution of an inter partes
review under section 314.
(d) Multiple Proceedings.--Notwithstanding sections
135(a), 251, and 252, and chapter 30, during the pendency
of an inter partes review, if another proceeding or matter
involving the patent is before the Office, the Director may
determine the manner in which the inter partes review
or other proceeding or matter may proceed, including
providing for stay, transfer, consolidation, or termination
of any such matter or proceeding.
(e) Estoppel.-(1) Proceedings before the Office.--The petitioner
in an inter partes review of a claim in a patent under
this chapter that results in a final written decision

39a
Appendix E
under section 318(a), or the real party in interest or
privy of the petitioner, may not request or maintain a
proceeding before the Office with respect to that claim
on any ground that the petitioner raised or reasonably
could have raised during that inter partes review.
(2) Civil actions and other proceedings.--The
petitioner in an inter partes review of a claim in
a patent under this chapter that results in a final
written decision under section 318(a), or the real party
in interest or privy of the petitioner, may not assert
either in a civil action arising in whole or in part under
section 1338 of title 28 or in a proceeding before the
International Trade Commission under section 337 of
the Tariff Act of 1930 that the claim is invalid on any
ground that the petitioner raised or reasonably could
have raised during that inter partes review.

40a
Appendix E
35 U.S.C. § 316 (2012)
§ 316. Conduct of inter partes review
(a) Reg ulations.- -T he Di rect or sha l l prescr ibe
regulations-(1) providing that the file of any proceeding under this
chapter shall be made available to the public, except
that any petition or document filed with the intent
that it be sealed shall, if accompanied by a motion to
seal, be treated as sealed pending the outcome of the
ruling on the motion;
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under section
314(a);
(3) establishing procedures for the submission of
supplemental information after the petition is filed;
(4) establishing and governing inter partes review
under this chapter and the relationship of such review
to other proceedings under this title;
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to-(A) the deposition of witnesses submitting affidavits
or declarations; and

41a
Appendix E
(B) what is otherwise necessary in the interest of
justice;
(6) prescribing sanctions for abuse of discovery, abuse
of process, or any other improper use of the proceeding,
such as to harass or to cause unnecessary delay or an
unnecessary increase in the cost of the proceeding;
(7) providing for protective orders governing the
exchange and submission of confidential information;
(8) providing for the filing by the patent owner of a
response to the petition under section 313 after an
inter partes review has been instituted, and requiring
that the patent owner file with such response, through
affidavits or declarations, any additional factual
evidence and expert opinions on which the patent
owner relies in support of the response;
(9) setting forth standards and procedures for allowing
the patent owner to move to amend the patent under
subsection (d) to cancel a challenged claim or propose a
reasonable number of substitute claims, and ensuring
that any information submitted by the patent owner in
support of any amendment entered under subsection
(d) is made available to the public as part of the
prosecution history of the patent;
(10) providing either party with the right to an oral
hearing as part of the proceeding;
(11) requiring that the final determination in an inter
partes review be issued not later than 1 year after the

42a
Appendix E
date on which the Director notices the institution of
a review under this chapter, except that the Director
may, for good cause shown, extend the 1-year period
by not more than 6 months, and may adjust the time
periods in this paragraph in the case of joinder under
section 315(c);
(12) setting a time period for requesting joinder under
section 315(c); and
(13) providing the petitioner with at least 1 opportunity
to file w ritten comments w ithin a time period
established by the Director.
(b) Considerations.--In prescribing regulations under
this section, the Director shall consider the effect of any
such regulation on the economy, the integrity of the patent
system, the efficient administration of the Office, and
the ability of the Office to timely complete proceedings
instituted under this chapter.
(c) Patent Trial and Appeal Board.--The Patent Trial and
Appeal Board shall, in accordance with section 6, conduct
each inter partes review instituted under this chapter.
(d) Amendment of the Patent.-(1) In general.--During an inter partes review
instituted under this chapter, the patent owner may
file 1 motion to amend the patent in 1 or more of the
following ways:

43a
Appendix E
(A) Cancel any challenged patent claim.
(B) For each challenged claim, propose a reasonable
number of substitute claims.
(2) Additional motions.--Additional motions to
amend may be permitted upon the joint request of the
petitioner and the patent owner to materially advance
the settlement of a proceeding under section 317, or as
permitted by regulations prescribed by the Director.
(3) Scope of claims.--An amendment under this
subsection may not enlarge the scope of the claims of
the patent or introduce new matter.
(e) Evidentiary Standards.--In an inter partes review
instituted under this chapter, the petitioner shall have
the burden of proving a proposition of unpatentability by
a preponderance of the evidence.

44a
Appendix E
35 U.S.C. § 317 (2012)
§ 317. Settlement
(a) In General.--An inter partes review instituted under
this chapter shall be terminated with respect to any
petitioner upon the joint request of the petitioner and the
patent owner, unless the Office has decided the merits of
the proceeding before the request for termination is filed.
If the inter partes review is terminated with respect to
a petitioner under this section, no estoppel under section
315(e) shall attach to the petitioner, or to the real party
in interest or privy of the petitioner, on the basis of that
petitioner’s institution of that inter partes review. If no
petitioner remains in the inter partes review, the Office
may terminate the review or proceed to a final written
decision under section 318(a).
(b) Ag reements in Writing.- -A ny ag reement or
understanding between the patent owner and a petitioner,
including any collateral agreements referred to in such
agreement or understanding, made in connection with, or in
contemplation of, the termination of an inter partes review
under this section shall be in writing and a true copy of
such agreement or understanding shall be filed in the Office
before the termination of the inter partes review as between
the parties. At the request of a party to the proceeding, the
agreement or understanding shall be treated as business
confidential information, shall be kept separate from the
file of the involved patents, and shall be made available only
to Federal Government agencies on written request, or to
any person on a showing of good cause.

45a
Appendix E
35 U.S.C. § 318 (2012)
§ 318. Decision of the Board
(a) Final Written Decision.--If an inter partes review
is instituted and not dismissed under this chapter, the
Patent Trial and Appeal Board shall issue a final written
decision with respect to the patentability of any patent
claim challenged by the petitioner and any new claim
added under section 316(d).
(b) Certificate.--If the Patent Trial and Appeal Board
issues a final written decision under subsection (a) and the
time for appeal has expired or any appeal has terminated,
the Director shall issue and publish a certificate
canceling any claim of the patent finally determined
to be unpatentable, confirming any claim of the patent
determined to be patentable, and incorporating in the
patent by operation of the certificate any new or amended
claim determined to be patentable.
(c) Intervening Rights.--Any proposed amended or new
claim determined to be patentable and incorporated
into a patent following an inter partes review under this
chapter shall have the same effect as that specified in
section 252 for reissued patents on the right of any person
who made, purchased, or used within the United States,
or imported into the United States, anything patented
by such proposed amended or new claim, or who made
substantial preparation therefor, before the issuance of a
certificate under subsection (b).

46a
Appendix E
(d) Data on Length of Review.--The Office shall make
available to the public data describing the length of time
between the institution of, and the issuance of a final
written decision under subsection (a) for, each inter partes
review.

47a
Appendix E
35 U.S.C. § 319 (2012)
§ 319. Appeal
A party dissatisfied with the final written decision of the
Patent Trial and Appeal Board under section 318(a) may
appeal the decision pursuant to sections 141 through 144.
Any party to the inter partes review shall have the right
to be a party to the appeal.

48a
Appendix E
35 U.S.C. § 311 (2006)
§ 311. Request for inter partes reexamination
(a) In general.--Any third-party requester at any time
may file a request for inter partes reexamination by the
Office of a patent on the basis of any prior art cited under
the provisions of section 301.
(b) Requirements.--The request shall-(1) be in writing, include the identity of the real party
in interest, and be accompanied by payment of an inter
partes reexamination fee established by the Director
under section 41; and
(2) set forth the pertinency and manner of applying
cited prior art to every claim for which reexamination
is requested.
(c) Copy.--The Director promptly shall send a copy of the
request to the owner of record of the patent.

49a
Appendix E
35 U.S.C. § 312 (2006)
§ 312. Determination of issue by Director
(a) Reexamination.--Not later than 3 months after the
filing of a request for inter partes reexamination under
section 311, the Director shall determine whether a
substantial new question of patentability affecting any
claim of the patent concerned is raised by the request,
with or without consideration of other patents or printed
publications. The existence of a substantial new question
of patentability is not precluded by the fact that a patent
or printed publication was previously cited by or to the
Office or considered by the Office.
(b) Record.--A record of the Director’s determination
under subsection (a) shall be placed in the official file of
the patent, and a copy shall be promptly given or mailed
to the owner of record of the patent and to the third-party
requester.
(c) Final decision.--A determination by the Director
under subsection (a) shall be final and non-appealable.
Upon a determination that no substantial new question
of patentability has been raised, the Director may refund
a portion of the inter partes reexamination fee required
under section 311.

50a
Appendix E
35 U.S.C. § 313 (2006)
§ 313. Inter partes reexamination order by Director
If, in a determination made under section 312(a),
the Director finds that a substantial new question of
patentability affecting a claim of a patent is raised, the
determination shall include an order for inter partes
reexamination of the patent for resolution of the question.
The order may be accompanied by the initial action of
the Patent and Trademark Office on the merits of the
inter partes reexamination conducted in accordance with
section 314.

51a
Appendix E
35 U.S.C. § 314 (2006)
§ 314. Conduct of inter partes
reexamination proceedings
(a) In general.--Except as otherwise provided in this
section, reexamination shall be conducted according to
the procedures established for initial examination under
the provisions of sections 132 and 133. In any inter partes
reexamination proceeding under this chapter, the patent
owner shall be permitted to propose any amendment to the
patent and a new claim or claims, except that no proposed
amended or new claim enlarging the scope of the claims
of the patent shall be permitted.
(b) Response.--(1) With the exception of the inter partes
reexamination request, any document filed by either the
patent owner or the third-party requester shall be served
on the other party. In addition, the Office shall send to the
third-party requester a copy of any communication sent
by the Office to the patent owner concerning the patent
subject to the inter partes reexamination proceeding.
(2) Each time that the patent owner files a response
to an action on the merits from the Patent and
Trademark Office, the third-party requester shall have
one opportunity to file written comments addressing
issues raised by the action of the Office or the patent
owner’s response thereto, if those written comments
are received by the Office within 30 days after the date
of service of the patent owner’s response.

52a
Appendix E
(c) Special dispatch.--Unless otherwise provided by the
Director for good cause, all inter partes reexamination
proceedings under this section, including any appeal to
the Board of Patent Appeals and Interferences, shall be
conducted with special dispatch within the Office.

53a
Appendix E
35 U.S.C. § 315 (2006)
§ 315. Appeal
(a) Patent owner.--The patent owner involved in an inter
partes reexamination proceeding under this chapter-(1) may appeal under the provisions of section 134
and may appeal under the provisions of sections 141
through 144, with respect to any decision adverse to
the patentability of any original or proposed amended
or new claim of the patent; and
(2) may be a party to any appeal taken by a third-party
requester under subsection (b).
(b) Third-party requester.--A third-party requester-(1) may appeal under the provisions of section 134, and
may appeal under the provisions of sections 141 through
144, with respect to any final decision favorable to the
patentability of any original or proposed amended or
new claim of the patent; and
(2) may, subject to subsection (c), be a party to any
appeal taken by the patent owner under the provisions
of section 134 or sections 141 through 144.
(c) Civil action.--A third-party requester whose request
for an inter partes reexamination results in an order
under section 313 is estopped from asserting at a later
time, in any civil action arising in whole or in part under

54a
Appendix E
section 1338 of title 28, the invalidity of any claim finally
determined to be valid and patentable on any ground
which the third-party requester raised or could have
raised during the inter partes reexamination proceedings.
This subsection does not prevent the assertion of invalidity
based on newly discovered prior art unavailable to the
third-party requester and the Patent and Trademark
Office at the time of the inter partes reexamination
proceedings.

55a
Appendix E
35 U.S.C. § 316 (2006)
§ 316. Certificate of patentability,
unpatentability, and claim cancellation
(a) In general.--In an inter partes reexamination
proceeding under this chapter, when the time for appeal
has expired or any appeal proceeding has terminated, the
Director shall issue and publish a certificate canceling any
claim of the patent finally determined to be unpatentable,
confirming any claim of the patent determined to be
patentable, and incorporating in the patent any proposed
amended or new claim determined to be patentable.
(b) Amended or new claim.--Any proposed amended or
new claim determined to be patentable and incorporated
into a patent following an inter partes reexamination
proceeding shall have the same effect as that specified
in section 252 of this title for reissued patents on the
right of any person who made, purchased, or used within
the United States, or imported into the United States,
anything patented by such proposed amended or new
claim, or who made substantial preparation therefor,
prior to issuance of a certificate under the provisions of
subsection (a) of this section.

56a
Appendix E
35 U.S.C. § 317 (2006)
§ 317. Inter partes reexamination prohibited
(a) Order for reexamination.--Notwithstanding any
provision of this chapter, once an order for inter partes
reexamination of a patent has been issued under section
313, neither the third-party requester nor its privies, may
file a subsequent request for inter partes reexamination of
the patent until an inter partes reexamination certificate is
issued and published under section 316, unless authorized
by the Director.
(b) Final decision.--Once a final decision has been
entered against a party in a civil action arising in whole
or in part under section 1338 of title 28, that the party
has not sustained its burden of proving the invalidity
of any patent claim in suit or if a final decision in an
inter partes reexamination proceeding instituted by a
third-party requester is favorable to the patentability
of any original or proposed amended or new claim of
the patent, then neither that party nor its privies may
thereafter request an inter partes reexamination of any
such patent claim on the basis of issues which that party
or its privies raised or could have raised in such civil
action or inter partes reexamination proceeding, and an
inter partes reexamination requested by that party or
its privies on the basis of such issues may not thereafter
be maintained by the Office, notwithstanding any other
provision of this chapter. This subsection does not prevent
the assertion of invalidity based on newly discovered
prior art unavailable to the third-party requester and

57a
Appendix E
the Patent and Trademark Office at the time of the inter
partes reexamination proceedings.

58a
Appendix E
35 U.S.C. § 318 (2006)
§ 318. Stay of litigation
Once an order for inter partes reexamination of a patent
has been issued under section 313, the patent owner may
obtain a stay of any pending litigation which involves an
issue of patentability of any claims of the patent which
are the subject of the inter partes reexamination order,
unless the court before which such litigation is pending
determines that a stay would not serve the interests of
justice.

